No. 19-1212
IN THE

Supreme Court of the United States
CHAD F. WOLF, ACTING SECRETARY OF
HOMELAND SECURITY, ET AL.,
Petitioners,
v.
INNOVATION LAW LAB, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 22nd day of January, 2021, I caused three copies of the Brief of the United
States Conference of Catholic Bishops, Catholic Legal Immigration Network, Inc., and
Catholic Charities USA as Amici Curiae Supporting Respondents to be served by thirdparty commercial carrier on the counsel identified below, and caused an electronic
version to be transmitted to the counsel identified below, pursuant to Rule 29.5 of the
Rules of this Court. All parties required to be served have been served.
Jeffrey B. Wall
Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Judy Rabinovitz
AMERICAN CIVIL LIBERTIES UNION
125 Broad Street
18th Floor
New York, N.Y. 10004
(212) 549-2618
JRabinovitz@aclu.org
Counsel for Respondents

Counsel for Petitioners

__________________________
Joshua S. Lipshutz

